               AUDIT OF THE

       OFFICE OF JUSTICE PROGRAMS

RURAL LAW ENFORCEMENT ASSISTANCE GRANT

             AWARDED TO THE

     CITY OF ABERDEEN, WASHINGTON



        U.S. Department of Justice

      Office of the Inspector General

               Audit Division



       Audit Report GR-90-11-003

               May 2011

                     AUDIT OF THE

              OFFICE OF JUSTICE PROGRAMS

       RURAL LAW ENFORCEMENT ASSISTANCE GRANT

                    AWARDED TO THE

            CITY OF ABERDEEN, WASHINGTON


                        EXECUTIVE SUMMARY


       The U.S. Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of a Recovery Act Rural Law Enforcement
Assistance Grant 2009-SD-B9-0198, in the amount of $837,721, awarded by
the Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA), to
the City of Aberdeen, Washington (Aberdeen). Aberdeen used the Recovery
Act Rural Law Enforcement Assistance grant to retain four corrections
officers and hire two new corrections officers for 2 years. The goal was to
maintain and supplement staffing levels in Aberdeen’s 18-bed jail facility,
thereby allowing the jail facility to remain open during the difficult economic
downturn. As of November 10, 2010, Aberdeen had expended $475,630
(57 percent) of the grant award.

      The purpose of the BJA’s Recovery Act Rural Law Enforcement
Assistance Program is to help rural areas prevent and combat crime,
especially drug-related crime. BJA’s grant program also attempts to
strategically target rural needs by providing training and technical assistance
where needed. Rural Law Enforcement Assistance funds can be used for the
following categories: (1) combating rural crime, (2) improving rural law
enforcement investigations, (3) enhancing rural detention and jail
operations, (4) facilitating rural justice information sharing, and
(5) providing training and technical assistance.

Audit Results

      The purpose of our audit was to determine whether costs claimed
under Grant 2009-SD-B9-0198 were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) program income; (4) expenditures including payroll,
fringe benefits, indirect costs, and accountable property; (5) matching;
(6) budget management; (7) monitoring of sub-recipients and contractors;
(8) reporting; (9) award requirements; (10) program performance and
accomplishments; and (11) post end date activity. We determined that
program income, accountable property, indirect costs, matching, monitoring
of sub-recipients and contractors, and post end date activity were not
applicable to this grant.

      As a result of our audit, we found grant related travel expenditures
were accurate, reasonable, and properly classified. Additionally, the Federal
Financial Reports (FFR) that we reviewed were submitted in a timely
manner, and we found that Aberdeen has made a reasonable effort to
accomplish its stated grant objectives. However, we noted the following
exceptions:

     •	 Aberdeen did not separately account for grant related payroll
        expenditures but rather commingled these expenditures with non-
        grant related transactions;

     •	 Aberdeen drew down an advance that was not completely applied to
        grant expenditures within 10 days of the drawdown;

     •	 $9,563 of corrections officer salaries were not adequately supported
        with properly approved timecards; and

     •	 One FFR was inaccurate.

      These items are discussed in detail in the Findings and
Recommendations section of the report. We discussed the results of our
audit with Aberdeen officials and have included their comments in the
report, as applicable. Our report contains four recommendations to OJP.
Further, we requested from Aberdeen and OJP written responses to our draft
report, which we received and are included in Appendices III and IV,
respectively. Our audit objective, scope, and methodology are discussed in
Appendix I.




                                     - ii ­
                                TABLE OF CONTENTS


INTRODUCTION .................................................................................1

       Recovery Act ...............................................................................2

       Background .................................................................................2

       OIG Audit Approach......................................................................3


FINDINGS AND RECOMMENDATIONS.................................................5

       Internal Control Environment.........................................................5

              Single Audit ........................................................................5

              Financial Management System...............................................6

       Drawdowns .................................................................................7

       Grant Expenditures ......................................................................7

              Payroll ................................................................................8

       Budget Management.....................................................................8

       Reports.......................................................................................9

              Federal Financial Reports ......................................................9

              Semiannual Progress Reports .............................................. 10

              Quarterly Recovery Act Reports ........................................... 11

       Compliance with Award Requirements .......................................... 12

       Program Performance and Accomplishments.................................. 12

       Conclusion................................................................................. 13

       Recommendations ...................................................................... 13



APPENDICES:

I.     OBJECTIVE, SCOPE, AND METHODOLOGY ..................................... 14

II.    SCHEDULE OF DOLLAR-RELATED FINDINGS .................................. 16

III.   GRANTEE RESPONSE .................................................................. 17

IV.    DEPARTMENT OF JUSTICE RESPONSE ........................................... 22

V.	    ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO CLOSE

        THE REPORT ........................................................................... 24

                        AUDIT OF THE

                 OFFICE OF JUSTICE PROGRAMS

          RURAL LAW ENFORCEMENT ASSISTANCE GRANT

                       AWARDED TO THE

               CITY OF ABERDEEN, WASHINGTON


                                  INTRODUCTION


       The U.S. Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of a Recovery Act Rural Law Enforcement
Assistance Grant 2009-SD-B9-0198, in the amount of $837,721, awarded by
the Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA), to
the City of Aberdeen, Washington (Aberdeen). Aberdeen used the Recovery
Act Rural Law Enforcement Assistance grant to retain four corrections
officers and hire two new corrections officers for 2 years. The goal was to
maintain and supplement staffing levels in Aberdeen’s 18-bed jail facility,
thereby allowing the jail facility to remain open during the difficult economic
downturn. As of November 10, 2010, Aberdeen had expended $475,630
(57 percent) of the grant award.

                             EXHIBIT 1

             RURAL LAW ENFORCEMENT ASSISTANCE GRANT

                   AWARDED TO CITY OF ABERDEEN

      GRANT AWARD        AWARD          AWARD
        NUMBER         START DATE    END DATE 1 AWARD AMOUNT

    2009-SD-B9-0198              08/01/09           07/31/11           $837,721
  Source: OJP

      The purpose of our audit was to determine whether costs claimed
under Grant 2009-SD-B9-0198 were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) program income; (4) expenditures including payroll,
fringe benefits, indirect costs, and accountable property; (5) matching;
(6) budget management; (7) monitoring of sub-recipients and contractors;
(8) reporting; (9) award requirements; (10) program performance and
accomplishments; and (11) post end date activity. We determined that
program income, accountable property, indirect costs, matching, monitoring
of sub-recipients and contractors, and post end date activity were not
applicable to this grant.

      1
          The Award End Date includes all time extensions that were approved by OJP.
Recovery Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act are to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

      The Recovery Act provided $787 billion to stimulate the economy. The
Department of Justice received $4 billion in Recovery Act funds. Recipients
of Recovery Act funds are required to submit quarterly financial and
programmatic reports.

Background

      The City of Aberdeen is located approximately 110 miles southwest of
Seattle on the Pacific coast in rural Grays Harbor County, Washington.
Aberdeen had a population of 16,008 as of 2009. According to the Aberdeen
Police Department, in 2009 there were 1,084 instances of felony offense,
681 instances of domestic violence, and 54 instances of crimes
against children. 2

      OJP’s mission is to increase public safety and improve the fair
administration of justice through innovative leadership and programs.
Specifically, BJA provides leadership and assistance to local criminal justice
programs that improve and reinforce the nation’s criminal justice system. The
BJA’s overall goals are to: (1) reduce and prevent crime, violence, and drug
abuse; and (2) improve the way in which the criminal justice system
functions.

      The purpose of the BJA’s Rural Law Enforcement Assistance Program
was to help states and rural areas prevent and combat crime, especially
drug-related crime, and to strategically provide training and technical
assistance where needed. Rural Law Enforcement Assistance funds can be
used for the following categories: (1) combating rural crime, (2) improving

       2
          A felony offense includes rape, robbery, aggravated assault, burglary, larceny, auto
theft, and arson. Domestic violence includes domestic incidents, domestic assaults, court
order violations, and criminal mischief. Crimes against children include child abuse, sex
offenses, and assaults.


                                            – 2 –

rural law enforcement investigations, (3) enhancing rural detention and jail
operations, (4) facilitating rural justice information sharing, and
(5) providing training and technical assistance. Based on Aberdeen’s grant
application, Aberdeen applied to receive assistance for the purpose of
enhancing its rural detention and jail operations.

OIG Audit Approach

      We tested Aberdeen’s compliance with what we consider to be the
most important conditions of the grant award. Unless otherwise stated in
our report, the criteria we audited against are contained in the OJP Financial
Guide, grant award documents, Code of Federal Regulations (C.F.R.), Office
of Management and Budget (OMB) Circulars, and the Recovery Act.
Specifically, we tested:

      •	 Internal Control Environment – to determine whether the
         internal controls in place for the processing and payment of funds
         were adequate to safeguard the funds awarded to Aberdeen and
         ensure compliance with the terms and conditions of the grant.

      •	 Drawdowns – to determine whether drawdowns were adequately
         supported and if Aberdeen was managing grant receipts in
         accordance with federal requirements.

      •	 Expenditures – to determine whether costs charged to the grant,
         including payroll and fringe benefits were accurate, adequately
         supported, allowable, reasonable, and allocable.

      •	 Budget Management – to determine whether there were
         deviations between the amounts budgeted and the actual costs for
         each category.

      •	 Reporting – to determine if the required financial, programmatic,
         and Recovery Act reports were submitted on time and accurately
         reflected grant activity.

      •	 Award Requirements – to determine whether Aberdeen complied
         with grant award guidelines, special conditions, and solicitation
         criteria.

      •	 Program Performance and Accomplishments – to determine
         whether Aberdeen made a reasonable effort to accomplish stated
         objectives.



                                    – 3 –

      The results of our audit are discussed in detail in the Findings and
Recommendations section of this report. We discussed the results of our
audit with Aberdeen officials and have included their comments in the
report, as applicable. Further, we requested from Aberdeen and OJP written
responses to our draft report, which we received and included in Appendices
III and IV, respectively. Our report contains four recommendations to OJP.
Our audit objective, scope, and methodology are discussed in Appendix I.




                                   – 4 –

                   FINDINGS AND RECOMMENDATIONS

               We found that Aberdeen did not separately account
               for grant expenditures for payroll and fringe benefit
               transactions but rather commingled these
               expenditures with non-grant transactions. Further,
               Aberdeen did not adhere to OJP’s requirements for
               drawing down grant funds when it drew down funds
               in advance and the funds were not fully spent for
               63 days. Also, one Federal Financial Report (FFR)
               was inaccurate. Finally, $9,563 in salary
               expenditures were inadequately supported, including
               some timecards lacking supervisory approval. As a
               result, we questioned these funds and made four
               recommendations. 3

Internal Control Environment

      We reviewed Aberdeen’s Single Audit Report and financial
management system to assess the city’s risk of noncompliance with laws,
regulations, guidelines, and terms and conditions of the grant. We also
interviewed individuals from Aberdeen’s grant management, accounting, and
finance staffs regarding internal controls and processes related to payroll
and accounts payable functions.

Single Audit

      According to OMB Circular A-133, non-federal entities that expend
$500,000 or more in federal awards in a year shall have a Single Audit
conducted. We reviewed Aberdeen’s most recent Single Audit for the fiscal
year (FY) ending December 31, 2009.4 We found that the independent
auditors had issued an unqualified opinion without noting any material
internal control weaknesses, deficiencies related to Department of Justice
grants, or findings that could be related to the grant.




       3
        The Inspector General Act of 1978, as amended, contains our reporting
requirements for questioned costs. However, not all findings are dollar-related. See
Appendix II for a breakdown of our dollar-related findings and for definitions of questioned
costs.
       4
           Aberdeen’s fiscal year is from January 1 through December 31.


                                            – 5 –

Financial Management System

      The OJP Financial Guide requires that all grant fund recipients
“establish and maintain adequate accounting systems and financial records
to accurately account for funds awarded to them.” Further, the accounting
system should provide adequate maintenance of financial data to enable
planning, control, and measurement. The guide also requires that grantees
separately account for each award and not commingle grant funds.

       Aberdeen utilized an accounting system entitled Springbrook. Based
on our overall review of grant related transactions that were recorded in
Springbrook, we found the system did not accurately account for grant
related payroll expenditures. We found these transactions to be commingled
with other, non-grant related city transactions within the accounting system.
Specifically, when we requested Aberdeen’s official grant related accounting
records, we were provided Detailed Trial Balance reports from its General
Ledger for Fund 001-46. We received two such reports, one for 2009 and
the other for 2010. For 2009, Aberdeen’s Detailed Trial Balance included a
total of 23 accounts, of which 6 were grant related, totaling $107,239 and
the remaining 17 were non-grant related, totaling $52,802. Likewise, for
2010, Aberdeen’s Detailed Trial Balance included a total of 24 accounts, of
which 7 were grant related, totaling $359,279 and the remaining 17 were
non-grant related, totaling $78,910. Aberdeen could not provide for us a
system-generated report that included only grant related accounts and
transactions. We had to individually search for specific accounts that
Aberdeen stated were entirely grant related. Based on the supporting
documentation that we reviewed, we concluded that Aberdeen commingled
grant related accounts with non-grant related accounts and that it could not
provide General Ledger reports that exclusively summarized the total
amount of grant related income and expenses.

      We asked Aberdeen officials for an explanation and Aberdeen’s Finance
Director stated that since this grant funded mainly the payroll expenses of
six corrections officers, she did not feel it was necessary to create a separate
grant related account number for payroll expenses. The OJP Financial Guide
requires that grant related transactions be accounted for separately in the
grantee’s accounting system. Specifically, it states “[e]ach award must be
accounted for separately. Recipients and sub-recipients are prohibited from
commingling funds on either a program-by-program or project-by-project
basis.” Therefore, we recommend that OJP ensure Aberdeen separately
accounts for grant related expenses in its accounting system.




                                     – 6 –

Drawdowns

       The OJP Financial Guide states that grant recipients should request
funds based upon immediate reimbursement requirements or the timing of
the drawdown should be scheduled in order to ensure that federal cash on
hand is the minimum needed for disbursements within 10 days. Exhibit 2
identifies the drawdowns that Aberdeen had made by the time we began our
fieldwork on November 29, 2010.

                                  EXHIBIT 2

                           DRAWDOWNS HISTORY FOR

                            GRANT 2009-SD-B9-0198

 Date of     Amount        Cumulative        Grant        Cumulative    Cumulative
Drawdown     Drawn         Drawdowns      Expenditures   Expenditures   Differences
01/14/10     $ 45,019       $    45,019     $ 133,884      $ 133,884    <$ 88,865>
02/01/10       69,966           114,985      <1,366>         132,518    < 17,533>
05/11/10       96,467           211,452       134,819        267,337    < 55,885>
08/02/10      195,157           406,609        70,030        337,367        69,242
Source: Aberdeen and OJP

      On August 2, 2010, Aberdeen drew down $195,157, of which $69,241
was an advance. Within 10 days of its drawdown, Aberdeen incurred
$30,631 in grant related expenditures, reducing the advance amount.
Aberdeen continued to charge grant expenditures against the advance until
it was completely spent as of October 5, 2010, 63 days after the funds were
drawn down. We asked Aberdeen officials why it drew down an advance
that was not completely applied to grant expenditures within 10 days of the
drawdown. Aberdeen officials stated that a clerical error was made when
calculating the amount of grant funds to draw down causing the over draw.
We recommend that OJP ensure Aberdeen establishes internal controls that
would enable it to drawdown future grant funds in accordance with OJP’s
requirements.

Grant Expenditures

       According to Aberdeen’s grant related accounting records as of
November 10, 2010, Aberdeen had incurred $475,630 in grant related
expenditures. The expenditures were comprised of salaries, fringe benefits,
and travel costs. We selected a judgmental sample of two non-consecutive
pay periods in order to test payroll (salaries and fringe benefits). We
describe the results of our payroll testing below in the Payroll section of this
report. Besides payroll, there were only a total of four non-payroll
transactions, all travel expenditures, totaling $2,180; we selected and tested
all four transactions. When conducting our transaction testing on the travel



                                          – 7 –

expenditures, we reviewed supporting documentation (payment vouchers,
invoices, and check copies) for each of the four transactions. We found that
all of the grant related travel expenditures were accurate, reasonable, and
properly classified as grant related expenditures.

Payroll

      According to the OJP-approved grant budget, Aberdeen was expected
to pay $549,859 in salarary expense and $279,406 in fringe benefits. We
selected a judgmental sample of two non-consecutive pay periods to test,
which included salaries and fringe benefit expenditures totaling $65,704.
We reviewed supporting documentation, such as time and attendance
records, to determine: (1) if the positions paid with grant funds appeared
reasonable with the stated intent of the program and consistent with the
OJP-approved budget, (2) whether the salaries of the employees paid with
grant funds were within a reasonable range, and (3) if the salary and fringe
benefit expenditures were adequately supported.

      We obtained a list of employees paid using grant funds from
Aberdeen’s grant manager. We compared the list of personnel working on
grant related activity to the approved positions in the OJP-approved
grant budget. We determined that the positions were reasonable with the
intent of the program and consistent with the approved budget.

      We tested the reasonableness of the corrections officer salaries, which
included reviewing the collective bargaining agreement between Aberdeen
and the Washington State Council of County and City Employees. Based on
our review, we found that the salaries for Aberdeen’s corrections officers
were reasonable. Likewise, we traced fringe benefits that were charged to
the grant to source documents and determined that these expenditures were
adequately supported, in accordance with the grant budget, and computed
correctly.

       The OJP Financial Guide specifically states that payroll records shall
include the time and attendance reports for all individuals reimbursed under
the award. In addition, according to 2 C.F.R. Part 225, Cost Principles for
State, Local, and Indian Tribal Governments (formerly known as OMB
Circular A-87), costs must be adequately documented to be allowable under
federal awards. Further, charges to federal awards for salaries and wages
will be based on documented payrolls approved by a responsible official. We
reviewed Aberdeen’s payroll records and supporting timecards and found
that some of the corrections officers’ timecards were incomplete because the
timecards were not properly approved by their supervisor. As a result, we
identified $9,563 in salaries that were inadequately supported and therefore,


                                    – 8 –

we questioned these costs. The remaining $56,141 of personnel costs that
we tested was adequately supported.

Budget Management

       According to the OJP Financial Guide, grant recipients are required to
establish and maintain accounting systems and financial records to ensure
that funds are spent in conformance with the grant terms and conditions.
The Guide also requires prior approval from the awarding agency if the
movement of dollars between budget categories exceeds 10 percent of the
total award amount.

      While Aberdeen did not separately account for payroll transactions,
which we discussed in the Internal Control Environment section of the
report, the general description of the expenditures in Aberdeen's accounting
records matched the approved budget. We did not identify any budget
transfers that required prior approval from OJP.

Reports

      According to the OJP Financial Guide, award recipients are required to
submit both quarterly Federal Financial Reports (FFR) and semiannual
Progress Reports. These reports describe the status of the funds, compare
actual accomplishments to the objectives of the grant, and report other
pertinent information. Moreover, since this was a Recovery Act grant,
Aberdeen was required to submit quarterly Recovery Act reports. We
reviewed the FFRs, Progress Reports, and quarterly Recovery Act reports
submitted by Aberdeen to determine whether each report was accurate and
submitted in a timely manner.

Federal Financial Reports

       According to the OJP Financial Guide, the quarterly FFRs are due no
later than 30 days after the end of the quarter, with the final FFR due within
90 days after the end date of the award. We reviewed the last four FFRs
submitted for the grant to determine if Aberdeen submitted these reports on
time. We found that Aberdeen submitted all four reports in a timely manner.




                                    – 9 –

                                 EXHIBIT 3

                FEDERAL FINANCIAL REPORT HISTORY FOR

                          GRANT 2009-SD-B9-0198

   Report          Reporting          Report       Date             Days
    No.              Period          Due Date    Submitted          Late
     1         10/01/09 - 12/31/09    01/30/10    01/26/10           0
     2         01/01/10 - 03/31/10    04/30/10    04/06/10           0
     3         04/01/10 - 06/30/10    07/30/10    07/28/10           0
     4         07/01/10 - 09/30/10    10/30/10    10/04/10           0
Source: Aberdeen and OJP

      We also reviewed each FFR to determine whether the reports
contained accurate information related to actual expenditures for the award.
Based on our review, we found that three of the four most recent FFRs were
accurate; the FFR for period ending June 30, 2010, was inaccurate. For the
inaccurate FFR, Aberdeen overstated grant related expenditures by $95,360
for the period between April 1, 2010, and June 30, 2010. We asked
Aberdeen officials why this occurred. Aberdeen’s Finance Director stated
that the overstatement in grant related expenditures on the FFR was caused
by human error. We recommend that OJP ensure Aberdeen prepares and
submits accurate FFRs.

Semiannual Progress Reports

      According to OJP, Aberdeen is required to submit its Progress Reports
on a semiannual basis. Specifically, as of November 29, 2010, Aberdeen
should have submitted two Progress Reports to OJP, which it did. We found
that the Progress Report for the period ending December 31, 2009, was
submitted on time. However, we found that the Progress Report for the
period ending June 30, 2010, was submitted 3 days late.

                                EXHIBIT 4

                    PROGRESS REPORT HISTORY FOR

                         GRANT 2009-SD-B9-0198

   Report         Reporting          Report        Date             Days
    No.             Period          Due Date    Submitted           Late
     1        08/01/09 – 12/31/09   01/30/10     01/28/10            0
     2        01/01/10 – 06/30/10   07/30/10     08/02/10            3
Source: Aberdeen and OJP

        We asked Aberdeen officials why the Progress Report for period ending
June 30, 2010, was submitted late. Aberdeen officials stated that they
initially filed the Progress Report on time on July 28, 2010. However,
Aberdeen was not able to provide us with documentation to support the date
of its initial report submission. Instead, we reviewed e-mails from BJA to


                                   – 10 –
Aberdeen that were dated January 28, 2010, and August 2, 2010, in which
BJA notified Aberdeen that it had not received from Aberdeen performance
measurement information along with its Progress Reports. Therefore, BJA
requested Aberdeen to re-submit the two Progress Reports electronically via
OJP’s Grants Management System (GMS). We verified that both of the
Progress Reports were re-submitted to OJP.

     The OJP Financial Guide states that:

            . . . the funding recipient agrees to collect data appropriate
            for facilitating reporting requirements established by Public
            Law 103-62 for the Government Performance and Results
            Act. The funding recipient will ensure that valid and
            auditable source documentation is available to support all
            data collected for each performance measure specified in
            the program solicitation.

      We reviewed Aberdeen’s Progress Reports to determine if they
accurately reflected grant activity and accomplishments. We found that
Aberdeen’s Progress Reports for the periods ending December 31, 2009, and
June 30, 2010, accurately reflected grant accomplishments.

Quarterly Recovery Act Reports

       Section 1512 of the Recovery Act requires recipients of Recovery Act
funds to submit quarterly reports. Aberdeen’s initial report was due
April 10, 2010, with quarterly reports due 10 days after the close of each
quarter thereafter.

      We reviewed Aberdeen’s Recovery Act reports for the quarters ended
March 31, 2010, June 30, 2010, and September 30, 2010, and found that
two of the reports were submitted on time and one report was submitted
late. However, given that the one late report was only 3 days late, we did
not take exception to this issue.

                                 EXHIBIT 5

                   RECOVERY ACT REPORT HISTORY FOR

                          GRANT 2009-SD-B9-0198

   Report                             Report       Date               Days
    No.         Reporting Period     Due Date    Submitted            Late
     1         01/01/10 - 03/31/10    04/10/10    04/13/10             3
     2         04/01/10 - 06/30/10    07/10/10    07/01/10             0
     3         07/01/10 - 09/30/10    10/10/10    10/06/10             0
Source: Aberdeen and OJP



                                    – 11 –
      We also confirmed that Aberdeen accurately reported expenditures
and the number of jobs retained on its Recovery Act reports.

Compliance with Award Requirements

       We reviewed Aberdeen’s compliance with specific program
requirements in the grant solicitation as well as special conditions included in
its grant award. We found that Aberdeen generally complied with specific
program requirements and grant special conditions, except for two instances
of non-compliance. As previously discussed in the Internal Control
Environment section of this report, Aberdeen did not separately account for
the salary and fringe benefit expenditures that were paid with grant funds.
Instead, Aberdeen commingled these expenditures with non-grant related
transactions in its accounting system. As a result, Aberdeen did not comply
with Special Condition 9. Further, as discussed in the Reports section of this
report, Aberdeen failed to submit a quarterly Recovery Act report on time.
As a result, Aberdeen did not comply with Special Condition 22. We
discussed both instances of non-compliance in more detail in the respective
sections of the report that we have cited.

Program Performance and Accomplishments

       According to Aberdeen’s grant application, Aberdeen planned to use the
grant award to retain four corrections officers and hire two new corrections
officers for 2 years. Based on discussions with Aberdeen’s Grant Manager and
our review of accounting records, we determined that Aberdeen hired two new
corrections officers and has been using grant funds to pay the salaries and
fringe benefits of all six corrections officers. Aberdeen Officials stated that
they are committed to continue to use grant funds to pay for the salaries and
fringe benefits of the six corrections officers until the grant end date.
Aberdeen Officials further stated that after the grant ends, Aberdeen plans to
retain the six corrections officer positions and fund these positions with local
funds.

       We asked Aberdeen’s Grant Manager whether grant funds were used to
provide a Community Service Diversion Program (Diversion Program), as
mentioned in the grant application. The Grant Manager explained that while
providing a Diversion Program was one of the two goals of this grant, the goal
of funding the salaries and fringe benefits of its six corrections officers was
the primary goal. The Diversion Program was designed to allow the city to
offer convicted offenders the opportunity to work off their fines. Currently,
those individuals, who cannot afford to pay their fine, are incarcerated in the
local jail. The jail does not have enough space for all the individuals who are


                                    – 12 –

unable to pay their fines. The Diversion Program was intended to be an
alternative solution. However, the progress of the Diversion Program was
stalled due to Aberdeen’s concern for the potential liability that may arise as a
result of implementing the Diversion Program. Aberdeen’s Municipal Court
has requested that the City of Aberdeen incorporate the Diversion Program
into its city ordinances. Currently, Aberdeen is in the process of developing
the city ordinance. Once the city ordinance is in place, Aberdeen plans to fully
implement the Diversion Program. Based on the Grant Manager’s explanation
and our review of relevant documentation, we determined that Aberdeen had
made a reasonable effort to accomplish its stated grant objectives.

Conclusion

      Overall, we found that Aberdeen’s grant related travel expenditures
were accurate, reasonable, and properly classified as grant expenditures;
and the FFRs were submitted in a timely manner. Also, Aberdeen had made
a reasonable effort to accomplish its stated grant objectives.

      However, we noted that Aberdeen did not adhere to OJP’s drawdown
requirements when it drew down an advance that was not fully applied to
grant expenditures for at least 63 days. Further, Aberdeen did not
separately account for grant related payroll expenditures but commingled
the payroll expenditures with non-grant related expenditures. In addition,
one FFR was inaccurate. Finally, some of the timecards, representing
$9,563 in corrections officer payroll expenditures, lacked proper supervisory
approval.

Recommendations

      We recommend that OJP:

      1. Ensure that Aberdeen separately accounts for its grant related
         payroll expenses in its accounting system.

      2. Ensure Aberdeen adheres to OJP’s drawdown requirements.

      3. Remedy $9,563 in questioned cost related to inadequately
         supported salaries.

      4. Ensure that Aberdeen submits accurate Federal Financial Reports.




                                    – 13 –

                                                               APPENDIX I

               OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of our audit was to determine whether costs claimed
under grant 2009-SD-B9-0198 were allowable, reasonable, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment;
(2) drawdowns; (3) program income; (4) expenditures including payroll,
fringe benefits, indirect costs, and accountable property; (5) matching;
(6) budget management; (7) monitoring of sub-recipients and contractors;
(8) reporting; (9) award requirements; (10) program performance and
accomplishments; and (11) post end date activity. We determined that
program income, accountable property, indirect costs, matching, monitoring
of sub-recipients and contractors, and post end date activity were not
applicable to this grant.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions.

       Unless otherwise specified, our audit covered, but was not limited to,
activities that occurred between the start of Grant 2009-SD-B9-0198 in
August 2009 through the start of our audit fieldwork on November 29, 2010.
Further, the criteria we audited against are contained in the OJP Financial
Guide, Code of Federal Regulations, OMB Circulars, the Recovery Act, and
specific program guidance, such as award documents and the grant
solicitation.

      We did not test internal controls for Aberdeen taken as a whole or
specifically for the grant program administered by Aberdeen. An
independent Certified Public Accountant conducted an audit of Aberdeen's
financial statements. The results of this audit were reported in the Single
Audit Report that accompanied the Independent Auditors’ Report for the
year ending December 31, 2009. The Single Audit Report was prepared
under the provisions of OMB Circular A-133. We reviewed the independent
auditor’s assessment to identify control weaknesses and significant
noncompliance issues related to Aberdeen or the federal programs it was
administering, and assessed the risks of those findings on our audit.



                                   – 14 –

       In addition, we performed limited testing of source documents to
assess the accuracy of reimbursement requests and FFRs. However, we did
not test the reliability of the financial management system as a whole, nor
did we place reliance on computerized data or systems in determining
whether the transactions we tested were allowable, supported, and in
accordance with applicable laws, regulations, and guidelines. We also
performed limited testing of information obtained from OJP’s GMS and found
no discrepancies. We thus have reasonable confidence in the GMS data for
the purposes of our audit. However, the OIG has not performed tests of the
GMS system specifically, and we therefore cannot definitively attest to the
reliability of GMS data.




                                  – 15 –

                                                                 APPENDIX II

               SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS:                                         AMOUNT ($) PAGE

    Inadequately supported Payroll Costs                        $ 9,563      8

TOTAL QUESTIONED COSTS                                          $9,563

TOTAL DOLLAR RELATED FINDINGS                                   $9,563




Questioned Costs are expenditures that do not comply with legal, regulatory, or
contractual requirements, or are not supported by adequate documentation at the
time of the audit, or are unnecessary or unreasonable. Questioned costs may be
remedied by offset, waiver, recovery of funds, or the provision of supporting
documentation.




                                     – 16 –

                                                                                                         APPENDIX III


                                     GRANTEE RESPONSE



                                                                             Bill S imjlS<Jll , Mayo.'
                                                                   200 E. Market St .• Aberdeen, W A 98520
                C ity of                                T~i   (360) 537. 3227 • Pax (360) 537-3350· Ctll (360) 58 [-441 5
                                                                            mayor@aberdeeninfo.com             _ _ _ _ _ _ __
r - --         Aberdeen

         April 13, 20 II


         Mr. David J. Gaschke
         Regional Audit Manager
         U.S. Department of Justice
         Office of Ihe Inspector General (OIG),
         San Fra ncisco Regional Audit orfi<::e
         1200 Buyhill Drive, Suite 20 1
         San B runo. CA 94066


         Re:     OlP's Burea u of Justice Assistance Grant Number 2009-S0-B9...QJ98
                 Draft Audit Report Response


         Dear Mr. Gaschke,
         We have received the D raft Audit Repolt from you r office regarding Ihe recent City of
         Aberdeen's program audit for the Bureau of Just ice Assistance Grant Number 2009-50-89-
         0198. We appredate the opportunity 10 respond 10 the draft report findings.

         l<' indingIReco mmendation N umber 1 : Ellsure that Aberdeen separately accounbIor its
         g rant-related payroll expetl ses ill its accoutlting system.

         T he Ci ty cloes not concur w ith the finding/recommendation.

         The City of Aberdeen utilizes the Washington State Auditor's Office, Budget and Account ing
         Rcponing System (BARS), which prescribes a sixteen digit account structure. This account
         structure is des ignated to provide for complete identification of each transaction. The structure
         provides for fund, program, depart ment, COSI center and class of transaction. T he City has
         established Fund 00 1-46 for the Coo-ections Departme nt operations.

         The City's 001 g rant fu ll y fu nded six corrections officcrs' salaries, benefits and travel COSlS.
         This is the entire Correcti on's Depmtment staff that is coded to the payroll and benefit accounts
         in the Con-e<:tions Depart ment (Fund 00 1-46). The salary and benefi t e xpenses for the grant
         fundcd corrections officers a re not cominglcd with any other salaries and bcneflts in th is
         program because there are no other employees coded to dcp~nmem #46. Only the six grant
         funded pos it ions have been coded to these un ique BARS account numbers _ The City believes
         that it operated in accordance with the intcnt of the Oepanment _of Jns tice. G rant Award
         Special Conditions, Article 9: Recovery Act- Separate Trucking and Reporting of R ecovery Act
         Funds and Outcom es:
                   "Tilt! recipiem agret!.\" to track, (lCCOlllllfor. lIIld report ollllllflllldsfrom this Recovery
                  ael award separately from all other fUllds, inc/mlillg DOl award funds/rOil! non_
                  Recovery aCI awards awarded/or the same Or similar purposes or programs.
                  An'ordillgly, Ihe aceoumillg systems oftlte recipielll alld all sub recipients m llst ensure




                                                    – 17 –

DOl Audit Findings    Re.~ponse
Page2of 7



        rilm funds from this Recovery Act award are not commingled with funds from (IllY olher
       source.
Additionally, we believe our system complies with the Common Rule, Depm1ment of Justice,
28CFR66, Financial Administration, Section 66.20 Standards ror financial management
systcms; section (a)(2):
       Perlllillile tracing offimds 10 a level of expellditure.~ adequClle 10 establish rhal .wchfil/Jd.~ have
       /Jot been used in violalioll of lhe restricliollS WId prohibitions of app/icablt! S/(itutes.

The city accounted for the "separate grant" activities on a transactional basis. The City'S 16
digit account numbers utilized for the payroll, benefiL~, and travel COsl~ were properly
segregnted. Reports submitted to the nuditors' extral:ted Dept. of Justice gnmt related only
cxpenses for salary, bcnefits, and travel.

The city did not account for the salary & benefit expenditures in a "separate fund" because the
individual acconnt numbers Msigned to the transactions of payroll and benefits in and of itself,
allowed for segregation and accountability of the transactions. Again, the payroll and bencfit
expenditure.<; for the Corrections grant were not conuningled with any other non-grnnt activity
for payroll and benefits. T he anditors were able to substantiate their testing of payroll processed
to the transaction details captured in the City'S Gcneral Ledger, undcr thesc accounts. Thc City
did account for other expenditure classes in department #46, for example supplies, professional
service.~, vehicle repairs & maintenance etc., but these acconnt classes were identified
individually by the siltteen digit acconnt codc. Bccause the allowable costs related to this grant
were specific to payroll & benefits, and mandated travel costs, we did not feel the need to split
the remaining corrections department operations into two separate funds.

Subsequent to the program audit, the City added UARRA funded" to thc title of thc Corrections
Department (fnnd 001·46) salary & benefit account titlcs. This docs not affect the transaction
details, as they were always separately stated and not conuningled with any other non-grant
related salary & benefits, but did provide a clearer picture to the reader that the accounts were
designated for the ARRA grant.


Finding/ Recommendation Number 2:                    Ensure Aberdeen adheres to DjP's drawdown
requirements.

The City concurs with the finding/recommendation.

The City is aware of the grant drawdown rcquirements and admits to a cleric;\! error that
occurred, which lead to an advance of funds. While preparing the second quarter report for
2010, the accountant ran a detailed trial balance for expenditures dated 4-01-2010 to J une 30,
2010. Rather than picking np the quarterly activity total, the year to date totals were used for the
reporting period. This re.<;nlted in a draw down in excess of the actual expenses incurred for the
reporting period (essentially a duplication of the first qnartcr grant activity). The City identified
the error on their own and corrected the error with the next quarterly report.

A sC<.."Onuary review of thc quarterly draw down reports is now completed prior to snbmission,
as is an annual reconciliation of the year to date activity with the quarterly grant reports filed.
                                             www .•ber6<eninfo.rom




                                           – 18 –

DO.! Audit rinding~   Re~pon~e
Page 3 of 7



Finding/Recomme nda tion Numbe r 3:            Remedy $9,563 in questioned costs related to
inadequately supported salarie.~.

The City of Aberdeen does not concur with this finding.

The basis for this finding is «$9,563 of corrections officer salaries that were not adequately
supported with properly approved t i mecards. ~ The document in question is called ffThe
Daily Time Log", which is not the official time card that is submitted to the city's finance
office fo r payroll processing. Correction Officers use the Daily Time Log to record their
workday hours to indicate if they worked one of the following areas: Regular Hours,
Overtime, Vacation Time, Sick Leave, Disability Leave, Holiday Time, Camp Time Taken or
Other Leave. The Log is initialed by the employee when he fills it out, and then initialed by
the Corrections supelvisor when he has the opportunity to review it. The questionable
costs were days that the TIme Log was InItIaled by the employee, but not initialed by the
supervisor. The Daily Time Log is only one part of a system that accounts for and ve rifies
employee work hours.

Included with this response is a sample of the documents that are used for a Corrections
Officer to document their t ime worked. I have highlighted Corrections Officer _ _
as an example beginning with his work schedule and concluding with City of Aberdeen
Police Department Time Sheet that is signed and verified by the Chief of Police. The
process outlined below is fo llowed by all Corrections Officers of the Aberdeen Police
Department to account for their hours worked.
    • Step One: Work Schedule s (exhibit 1) are posted l~ before the beginning of
        the upcoming shift. The attached example shows CO _             was scheduled to work
        days from April 4, 2010 to May 1, 2010.
    • Step Two: On the Daily Time Loe (exhibit 2) for April 22, 2010, _              recorded
        that he worked 8 hours and initialed the log for that day. Our system is to have the
        supervisor review and initial the Daily Time Log. The Supervisor, Captain _
        was on vacation and did not initial the time log for April 22, 2010.
    • Step Three: Administrative Assistant _ _ reviews the Da ily Ti me Log
        (exhibit 2) and summarizes the information on the Employee Annual Time
        Summary (exhibit 3). The hours worked are then verified against the original
        Work Schedule (exhibit 1) to note any alteration of the scheduled hours. If the
        amounts do not match, then the supervisor is consulted and additional
        documentation is required. For example, comp time or vacation slips to document
        the change.
  .• Step Four: At month's end, the Administrative Assistant transfers the Employee's
        Annual Time Summary (exhibit 3) to the City of Aberdeen Police Department
        Ii..m..e. ~(exhibit 4). This is the official monthly summary for all department
        employees used by the Finance Department for entry into the payroll proceSSing
        system.
    • Step Five: The Chief of Police reviews the Pol ice Department Time Sheet (exhibit 4)
        and formally approves the form as evidenced by his signature.

                                       www.• bcrdccninf<>.«om




                                     – 19 –

001 Audit Finding~   Respon~e
Page4of7


The City acknowledges that the supervisors did not, in all cases, review and irJitial the
Daily Time Log. In the instances cited by the auditor, the supervisor was on scheduled
time off. Patrol shift Sergeants or Corporals supervise the corrections officers when
Captain _          is not available. They would be awal'e if any employee was absent, as
someone would have to be called in to cover their shift (in an overtime capacity). There is
little risk that an employee could record time worked when they actually were not on
duty. The review process completed in Step 3, would determine if overtime was needed to
cover a shirt, and why another employee was scheduled outside of the original work
schedule. As an example I have included a copy of the Shift Sche dule (exhibit 5) for
                    I 22, 2010. Sergeant _          would have been the supervisor on duty
                             i      day. If a corrections officer did not show up to work, the
                             would have to call someone in to cover the shift. If this is
necessary, it              affect two other corrections officers (split shift) and would be
reflected on the Daily Time Log. In this example, the Daily Time Log for April 22, 2010
reflected no CO staff overtime.

We recognize that the Daily Time Log was not initialed by the Corrections Superv:sor in all
cases from the auditor's sampled transactions. However, as steps one through five show,
the Department's payroll process includes compensating internal controls that reflect
adequate payroll records with supporting timecards, a multiple step review process for
accuracy, and verification of grant eligibility.      The reviews performed by the
Administrative Assistant and the Chief of Police should be considered compensating
controls in the absence of the supervisor's !'eview and remove any doubt of payroll
questioned costs.

Subsequent to the audit, the Department procedure is to have the Patrol Shift Supervisor's
initial the Daily Time Log when the Captain is not available.

Finding/Recommendation Number 4; Ensure that Aberdeen submits accurate Federal
Financial Reports.

The City of Aberdeen does not concur with this finding.

This recommendation is referring to the filing of the GMS Report/Semi-Annual Progress
Report Number 2, fa!' the period January 1, 2010 to June 30, 2010. The auditors concluded
that the City filed this report three days late. The City does not agree with this finding for
the following reasons;
    (1) During the filing period of Report Number 1 & 2, the B/A site did not systematically
        reflect a submission date anywhere in the system. (We did note, however, that
        when Report Numbe!' 3 (GMS Report) was filed on the 8/A site, the system printed
        a "report neated on Janua!'y 18, 2011~ on the bottom of each repon page.}
        Pu!'thermo!'e, the Semi-Annual Progress Report grid (exhibit 6) that reflects
        status of report filings only reflects the "Last Edited~ date, not an original report
        submission date. The City of Aberdeen requested that the previously filed reports
        be reopened to correct statistical data that was reported.


                                       www.• b<rc\eep,,,ro.",,,,,,




                                     – 20 –

001 Audit Findings Respoll5e
PageSof7


    (2) The City completed the Progress Reports at the same time we prepared the
        Financial Status Reports. The 6-30-2010 Financial Status Report was submitted to
        BJA on 7-28-2010 5:32 p.m. (exhibi t 7, page 3). We believe that the Progress
        Report was filed that same time and is therefore timely submitted.
    (3) The City also submits as documentation the email ~ondence log (exhibit 8)
        from the BJA site. An email was received by _ _ on 8-02-2010 regard ing
        Report Number 2 (exhibit 9). The emarrreferences receipt of the Grant
        Performance Report #2, and references that the review of the report was complete
        but requested that we submit an attachment to support the report. We conclude
        that there is no way, the 8JA staff had receIved and reviewed the report on the
        same day, i.e. August 2, 2010. Our past experience noted that reports were
        received at least two days prior to receipt of the confirmatIon email from BJA. This
        can be no ted by looking at e mail correspondence log (exhibit 8) for the 1-28-20 10
        email received from _ _ _ regarding the receipt of Gran t
        Performance Report Number 1 Ouly 2009 to December 31, 2009). This email
        (exhibit 10) cited completion of the review on January 28, 2010, when the original
        report was submitted on January 26, 2010.


 Thank you fo r this opportunity to provide the City's response to t he audit finding. We
 hope that you will find this information helpful when determining the final
i Udit rer 0ft. Should you have additional questions, please direct them
           Finance Director for the City of Aberdeen. She may be reached at


Sincerely,



Bill Simpson, Mayor




                                      – 21 –

                                                                                      APPENDIX IV

          DEPARTMENT OF JUSTICE RESPONSE




                                                   U.S. Department of Justice

                                                   Office of Ju stice Programs

                                                   Office ofAudit, Assessment, and Management


                                                   Washing/on. D.C. 20531


 APR 	15 20ll.
MEMORANDUM TO: 	             David J. Gaschkc
                             Regional Audit Manager
                             Office of the Inspector General
                             San Francisco Regional Audit Office

FROM:                        Maureen Henneberct t ep},-
                             Director
                                        A.
                                                J lb-Ml \          ~        ~
SUBJECT: 	                   Response to the Draft udit Report, Office ofJustice Programs,
                             Rural Law Enforcement Assistance Grant Awarded to the
                             City ofAberdeen, Washington

This memorandwn is in response to your correspondence, dated March 25, 20 II , transmitting the
subject draft audit report for the City of Aberdeen (Aberdeen). We cons ider the subject report
resol ved and request written acceptance of this action from your office.

The report contains four recommendations and $9,563 in questioned costs. The following is the
Office of Justice Programs' (OIP) ana lysis of the draft audit report recommendations. For ease
of review, the recommendations are restated in bold and are followed by our response.

1. 	    We recommend th at OJ]' ensure that Aberdeen separa tely acco unts for its
        grant-related payroll expenses in its accounting system.

        We agree with the recommendation. We will coord inate with Abt:rdeen to obtain a copy
        of procedures implemented to ensure that grant-related payroll expenses are separately
        accounted for in its accounting system.

2. 	    We recommend that OJP ensure tbat Aberdeen adheres to OJP's drawdown
        requirements.

        We agree with the recommendation. We will coordinate with Aberdeen to obtain a copy
        of procedures implemented to ensure that Federal cash-on-hand is the minimum amount
        needed for disbursements to be made immediately or within 10 days, and amounts
        requested for re imbursement are supported by adequate documentati on.




                                         - 22 ­
3.     We reeommend th at OJP remedy th e S9,563 in        qu~t ion e'" (O~t   rehlted to
       inlldellualely supported SlI lariU.

       We agree with the recommeooatioll We will coordinate wilh Aberdeen 10 remedy the
       $9,563 in questioned costs charged to grant number 2009-SD-09-O\98, related to
       inadequately su pported salaries fO£ CO!TC(;tions Officers. If adequate documentat ion
       cannot be provided, Aberdeen may be required to return the funds to the U.S. Department
       of Justice.

4.     \ Ve reco mmend that O.JP ensure th a t Aberdeen suhmits IIcc urlltc fo'cdcrnll-"inll nci lll
       Rcp\lrt~.


       We agree with the recommendation. We wi ll eoord irmte with Aberdeen to obtain a copy
       of procedures implemented to ensure thnt Federal expcndillires arc aecurntcly reported on
       future Federal Fi nancial Reports, and the supporting documentation is maintained for
       future auditing purposes.

We appreciate the opportunity to review and comment on the dmn audit report. If you have ,my
questi ons or require additiona l infomlation, please contuct Jellery A. Haley, Deputy Din,:elor,
Audit and Review Division, on (202) 616--2936.

ee:    Jeffery A. llnley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Eileen Garry
       Ikputy Director
       Bureau of Justice Assistance

       Amunda LoCicero
       Audit Liaison
       Bureau of Justice Assislance

       Yoluine Faustin
       Program Manager
       Dureau of Justice Assistance

       Ri chard Theis
       Assistllnt Director
       Audil Liaison Group
       Justice Munagement Division

       OJr Executive Secretariat
       Control Number 20110393




                                                 2




                                           – 23 –

                                                                APPENDIX V

                   OFFICE OF THE INSPECTOR GENERAL

                  ANALYSIS AND SUMMARY OF ACTIONS 

                    NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the Office of Justice
Programs (OJP) and to the City of Aberdeen (Aberdeen). Aberdeen and OJP
responses are incorporated respectively as Appendices III and IV of this final
report. The following provides the OIG analysis of the response and
summary of actions necessary to close the report.

Recommendation Number:

1.	 Resolved. OJP concurred with our recommendation to ensure that
    Aberdeen separately account for its grant related payroll expenses
    within its accounting system. However, Aberdeen disagreed with this
    finding and related recommendation.

    Specifically, in its response, Aberdeen stated that its accounting system
    utilizes a 16-digit account structure to identify transactions. This
    account structure enables Aberdeen to prescribe to its transactions a
    fund, program, department, cost center, and transaction class. Using
    this capability, Aberdeen established Fund 001-46 to track Corrections
    Department operations.

    Aberdeen stated that the salary and fringe benefit expenses for the
    grant funded corrections officers were not commingled with any other
    salaries and fringe benefit expenditures, because there were no other
    employees besides the six corrections officers paid by the grant that
    were recorded in Fund 001-46. Additionally, Aberdeen stated that it
    separately accounted for grant transactions because it had assigned
    individual account numbers to its payroll and fringe benefit transactions
    and that, in and of itself, allowed for segregation and accountability of
    the transactions. Therefore, Aberdeen believed that it complied with the
    grant’s special condition and 28 C.F.R. Part 66, which requires grantees
    to separately account for grant related transactions.

    However, Aberdeen acknowledged that although it had recorded its
    corrections officer salaries and fringe benefits in separate expense
    accounts, it did not create a separate fund. This meant that the grant
    related salary and fringe benefit expense accounts were co-located


                                   – 24 –

within the same fund (001-46) as other unallowed, non-grant related
expenditure accounts, such as supplies, professional services, and
vehicle repairs and maintenance. Aberdeen stated that because grant
related expenditures (salary, fringe benefits, and travel) were recorded
in separate expense accounts, it did not feel that it needed “. . . to split
the remaining corrections department operations into two separate
funds.”

We do not agree with Aberdeen’s justification for failing to establish a
separate fund within its accounting system to separately account for
grant related transactions. Aberdeen was required to separately
account for grant related transactions in its accounting system and the
manner in which this is accomplished is through the establishment of
not only separate expense accounts but also a separate fund within its
accounting system. According to the OJP Financial Guide, “[e]ach award
must be accounted for separately. Recipients and sub-recipients are
prohibited from commingling funds on either a program-by-program or
project-by-project basis.”

Based on our analysis of Aberdeen’s accounting records as well as its
own statements that were provided in response to our draft audit
report, Aberdeen did not establish a separate fund to track only grant
related transactions and accounts. Rather, Aberdeen’s Fund 001-46
included non-grant related expense accounts; a clear departure from
OJP’s criteria on how grant expenditures are supposed to be maintained.

Further, in their response to our draft audit report, Aberdeen stated that
it provided to us reports that “. . . extracted Dept. of Justice grant
related only expenses for salary, benefits, and travel.” This statement
is not consistent with what Aberdeen provided to us during our audit.
When we requested Aberdeen’s official grant related accounting records,
we were provided Detailed Trial Balance reports from its General Ledger
for Fund 001-46. We received two such reports, one for 2009 and the
other for 2010. For 2009, Aberdeen’s Detailed Trial Balance included a
total of 23 accounts, of which 6 were grant related, totaling $107,239
and the remaining 17 were non-grant related, totaling $52,802.
Likewise, for 2010, Aberdeen’s Detailed Trial Balance included a total of
24 accounts, of which 7 were grant related, totaling $359,279 and the
remaining 17 were non-grant related, totaling $78,910. Aberdeen could
not provide for us a system-generated report that included only grant
related accounts and transactions. We had to individually search for
specific accounts that Aberdeen stated were entirely grant related.
Because Aberdeen commingled grant related accounts with non-grant
related accounts, it could not provide General Ledger reports that


                                – 25 –

     exclusively summarized the total amount of grant related income and
     expenses. 5

     Aberdeen stated in its response to our draft audit report that it added
     “ARRA funded” to the titles of its Corrections Department (Fund 001-46)
     salary and fringe benefit expense accounts. Changing the expense
     account labels to include reference to the Recovery Act will not be
     enough to comply with stated criteria. In fact, one of the special
     conditions of the grant award states: “the recipient agrees to track,
     account for, and report on all funds from this Recovery Act award
     (including specific outcomes and benefits attributable to Recovery Act
     funds) separately from all other funds, including DOJ award funds from
     non-Recovery Act awards awarded for the same or similar purposes or
     programs. . . . Accordingly, the accounting systems of the recipient and
     all sub-recipients must ensure that funds from this Recovery Act award
     are not commingled with funds from any other source.” Simply
     changing account titles to refer to the Recovery Act will not meet the
     requirements of the special condition. Aberdeen will need to establish a
     separate fund from its Corrections Department fund (001-46), because
     Fund 001-46 includes non-grant related expenditures that should not be
     commingled with grant related transactions.

     OJP stated that it will coordinate with Aberdeen to obtain a copy of
     procedures implemented to ensure that grant related expenses are
     separately accounted for in its accounting system. This
     recommendation can be closed when we obtain documentation to
     support the establishment of a separate, grant related fund within
     Aberdeen’s accounting system.

2.	 Resolved. Both OJP and Aberdeen concurred with our recommendation
    to ensure that Aberdeen adheres to OJP’s drawdown requirements.
    Aberdeen stated that a clerical error was made that caused the over­
    draw and they have since implemented a procedure for a second person
    to review the drawdown information before grant funds are drawn
    down. OJP stated in its response to our draft audit report that it will
    coordinate with Aberdeen to obtain a copy of procedures implemented
    to ensure that federal cash on hand is the minimum amount needed for
    disbursements to be made immediately or within 10 days, and amounts
    requested for reimbursement are supported by adequate
    documentation. This recommendation can be closed when we obtain a


       5
          In order to clarify this issue in the final audit report, we added language to the
Financial Management System section of this report that was not originally included in our
draft audit report.


                                            – 26 –

    copy of procedures implemented to ensure that federal cash on hand is
    the minimum amount needed for disbursements to be made
    immediately or within 10 days, and amounts requested for
    reimbursement are supported by adequate documentation.

3.	 Resolved. OJP concurred with our recommendation to remedy the
    $9,563 in questioned costs related to inadequately supported salaries.
    However, Aberdeen disagreed with this finding and related
    recommendation.

    Specifically, in its response, Aberdeen stated that the Daily Time Log is
    only one part of a system that accounts for and verifies employee work
    hours. There are other compensating internal controls in Aberdeen’s
    payroll process, including reviews performed by the Administrative
    Assistant and the Chief of Police, in the absence of the corrections
    supervisor’s review. While Aberdeen recognized that the Daily Time Log
    was not initialed by the corrections supervisor in some cases, it believed
    that other internal controls were adequate to ensure that the employee
    worked the time indicated in the Daily Time Log.

    However, Aberdeen acknowledged in its response to our draft audit
    report that the Daily Time Log is utilized by its Administrative Assistant
    to create the Employee’s Monthly Time Summary. In turn, the
    Employee Monthly Time Summary is utilized to create the City of
    Aberdeen Police Department Time Sheet. The Chief of Police then signs
    the Time Sheet. If the Daily Time Log is not approved by the
    employee’s supervisor, then the resulting Time Sheet signed by the
    Chief of Police contains time that has not been approved by the
    employee’s supervisor.

    According to the Aberdeen Police Department Policy Manual, dated
    October 4, 2010, Policy 1036.1.2: “[t]he daily time log for each
    relevant section should be reviewed on a daily basis by the designated
    supervisor to ensure that the log is completed. . . . The designated
    supervisor should initial in the appropriate box on the daily time log.”
    Furthermore, we determined that the corrections supervisor’s initials on
    the Daily Time Log serves as proper documentation and it should be an
    essential step in Aberdeen’s payroll review and approval process.

    28 C.F.R. § 66.20 states that “. . . accounting records must be
    supported by such source documentation as cancelled checks, paid bills,
    payrolls, time and attendance records, contract and subgrant award
    documents, etc.” Furthermore, 2 C.F.R. Part 225, Cost Principles for
    State, Local, and Indian Tribal Governments (formerly known as OMB


                                   – 27 –

    Circular A-87) states “. . . where employees are expected to work solely
    on a single Federal award or cost objective, charges for their salaries
    and wages will be supported by periodic certifications that the
    employees worked solely on that program for the period covered by the
    certification. These certifications will be prepared at least semi-annually
    and will be signed by the employee or supervisory official having first­
    hand knowledge of the work performed by the employee.” Aberdeen’s
    other payroll-related documents, such as Aberdeen’s timesheets, do not
    meet these standards.

    OJP stated that it will coordinate with Aberdeen to remedy the $9,563 in
    questioned costs charged to the grant as a result of inadequately
    supported salaries. This recommendation can be closed when OJP
    provides us with evidence that Aberdeen has remedy the $9,563
    questioned costs related to inadequately supported salaries.

4.	 Resolved. OJP concurred with our recommendation to ensure that
    Aberdeen submits accurate Federal Financial Reports. Aberdeen
    disagreed with this finding and related recommendation, but did not
    provide justification about why it did not agree with this
    recommendation. Instead, it responded to our statement in the draft
    audit report regarding its Progress Report for the period ending June 30,
    2010 that was submitted 3 days late. We did not take issue to this late
    filing. Therefore, our finding related to Aberdeen submitting inaccurate
    Federal Financial Reports to OJP remains.

    OJP stated that it will coordinate with Aberdeen to obtain a copy of
    procedures implemented to ensure that grant related expenditures are
    accurately reported on future Federal Financial Reports and that
    Aberdeen maintains related supporting documentation. This
    recommendation can be closed when OJP provides us with a copy of
    procedures implemented to ensure that Aberdeen accurately reports
    grant related expenditures on its Federal Financial Reports and that it
    maintains required supporting documentation.




                                    – 28 –

